CSE FEDERAL CREDIT UNION

VISA CREDIT CARD AGREEMENT
330-452-9801
In this Agreement the words you and your mean each and all of those who apply for the card or who sign this Agreement. Card means the VISA Credit Card and any duplicates
and renewals we issue. Everyone who receives, signs or uses a card issued under this agreement must be a member of this Credit Union. Account means your VISA Credit
Card Line of Credit account with us. We, us and ours means this Credit Union.

CREDIT DISCLOSURES
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE (APR) 3.99% introductory APR for a period of 6 billing cycles
for Qualified Purchases & Balance
from date of purchase. After that, 8.25% - 18.00%,
Transfers – Visa® Choice Rewards®
based on your creditworthiness.
ANNUAL PERCENTAGE RATE (APR) 5.99% introductory APR for a period of 6 billing cycles
for Qualified Purchases & Balance
from date of purchase. After that, 8.25% - 18.00%,
Transfers – Visa® Platinum
based on your creditworthiness.
ANNUAL PERCENTAGE RATE (APR) 8.25% - 18.00% based on your creditworthiness.
for Cash Advances – Visa®
Platinum & Visa® Choice
Rewards®
Penalty APR
NONE
Paying Interest
Your due date is at least 25 days after the close of each
billing cycle. We will not charge you interest on purchases if
you pay your entire balance by the due date each month.
We will begin charging interest on cash advances and
balance transfers on the transaction's date.
For Credit Card Tips from the
To learn more about factors to consider when applying or
using a credit card, visit the website of the federal reserve
Federal Reserve Board
board at http://www.federalreserve.gov/credit card
Fees
· Annual Fee
Transaction Fees
· Balance Transfer
· Cash Advance
· Foreign Transaction
· Currency Conversion
Penalty Fees
· Late-Payment
· Over-the-credit-limit
· Returned Payment

NONE
NONE
NONE
1% of each transaction in U.S. Dollars.
1% of each transaction in U.S. Dollars.
up to a maximum of $25.00
None
up to a maximum of $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including current
transactions)." See your account agreement for more details.
Billing Rights: Information on your rights to dispute transaction(s) and how to exercise those rights is provided in your
account agreement.

Page 1 of 3

Continued on Next Page

Revised 5/16

VISA CREDIT CARD AGREEMENT (Keep this for your records)
1. The Annual Percentage Rate (APR) for Purchases is fixed, based on your credit
worthiness.

information regarding your account to credit bureaus and other creditors who inquire
of us about your credit standing, to the extent authorized by our By-Laws.

10. Monthly Payment. We will mail you a statement every month showing your
Previous Balance of purchases and cash advances, the current transactions on your
account, the remaining credit available under your Credit Line, the New Balances of
th
3. Late Fee: If the minimum required payment is not received by the 26 of every purchases and cash advances, the Total New Balance, the FINANCE CHARGE due to
date, any other billed fees, and the Minimum Payment required.
month a late charge of a maximum of $25.00 will be imposed.
Every month you must pay at least the Minimum Payment by the Payment Due Date.
4. Average Daily Balance (including current transactions): We figure the interest You may, of course, pay more frequently, pay more than the minimum payment, or
charge on your account by applying the periodic rate to the “average daily balance” pay the Total New Balance in full—and you will reduce the FINANCE CHARGE by doing
of your account. To get the “average daily balance” we take the beginning balance so. The Minimum Payment will be (a) 2% of your Total New Visa Balance, or $25.00
whichever is greater, or (b) your Total New Balance, if it is less than $25.00 plus (c)
of your account each day, add any new [purchases/advances/fees], and subtract
any portion of the Minimum Payment(s) shown on prior statement(s) which remains
[any unpaid interest or other finance charges and] any payments or credits. This
unpaid.
gives us the daily balance. Then, we add up all the daily balances for the billing
We will apply any payments we receive from you in excess of the Minimum Payment
cycle and divide the total by the number of days in the billing cycle. This gives us
due to the balance with the highest annual percentage rate and any remaining
the “average daily balance.”
portion to the other balances in descending order from the highest APR based on the
applicable APR in accordance with the law.
5. Responsibility. If we issue you a card, you agree to repay all debts and the
FINANCE CHARGE arising from the use of the card and the card account. For
example, you are responsible for charges made by yourself, your spouse and minor 11. Default. You will be in default if you fail to make any Minimum Payment within 25
days after your monthly statement closing date. You will also be in default if your
children or any other authorized user. You are also responsible for charges made
ability to repay us is materially reduced by a change in your employment, an increase
by anyone else to whom you give the card, and this responsibility continues until
the card is recovered. You cannot disclaim responsibility by notifying us, but we will in your obligations, bankruptcy or insolvency proceedings involving you, your death
close the account for new transactions if you so request and return all cards. Your or your failure to abide by this Agreement, or if the value of our security interest
materially declines. We have the right to demand immediate payment of your full
obligation to pay the account balance continues even though an agreement,
divorce decree or other court judgment to which we are not a party may direct you account balance if you default, subject to our giving you any notice required by law.
or one of the other persons responsible to pay the account. Any person using the To the extent permitted by law, you will also be required to pay our collection
card is jointly responsible with you for charges he or she makes. If that person signs expenses, including court costs and reasonable attorneys’ fees.
the card he or she becomes a party to this Agreement and is also jointly
12. Using the Card. To make a purchase or cash advance, present the card to a
responsible for all charges on the account including yours.
participating VISA merchant, to us or, to another financial institution, and sign the
sales slip or cash advance draft. You may also use your Personal Identification
6. Lost Card Notification and Liability for Unauthorized Use:
If you notice the loss or theft of your credit card or a possible unauthorized use of Number (PIN) in conjunction with the card in an Automated Teller Machine or other
type of electronic terminal. You will retain your copy of sales drafts, cash advance or
your card, you should write to us immediately at:
credit slips to verify your transactions with the monthly statement. We reserve the
CSE Federal Credit Union
right to make a reasonable charge for photocopies of slips you may request. A card
1380 Market Avenue North
may not be used for illegal transactions such as Online Internet Gambling.
Canton, OH 44714
2. The Annual Percentage Rate (APR) for Cash Advances is fixed, based on your
credit worthiness.

Or call us at 330-452-9801 or after Credit Union hours call 1-866-273-3281.
You will not be liable for any unauthorized use that occurs after you notify us. You
may, however, be liable for unauthorized use that occurs before your notice to us.
In any case, your liability for transactions on a lost or stolen Visa card is $0.00
unless the Credit Union determines that the Cardholder was negligent or
fraudulent in the handling of the account or card.
7. Credit Line. If we approve your application, we will establish a self-replenishing
Line of Credit for you and notify you of its amount when we issue the card. Your
Line of Credit for cash advances will be one-half of the overall credit limit
established for you. This Line of Credit for cash advances is part of not in addition
to your established Line of Credit. You agree not to let the account balance exceed
this approved Credit Line. Each payment you make on the account will restore your
Credit Line by the amount of the payment which is applied to the principal. You
may request an increase in your Credit Line only by written application to us, which
must be approved by a loan officer. By giving you written notice, we may reduce
your Credit Line from time to time, or with good cause, revoke your card and
terminate this Agreement. Good cause includes your failure to comply with this
Agreement, or our adverse reevaluation of your creditworthiness. You may also
terminate this Agreement at any time, but termination by either of us does not
affect your obligation to pay the account balance.
The cards remain our property and you must recover and surrender to us all cards
upon request.
8. Copy Received. You acknowledge a receipt of a copy of this Agreement.
9. Credit Information. You authorize us to investigate your credit standing when
opening, renewing or reviewing your account, and you authorize us to disclose

Page 2 of 3

13. Personal Identification Number. To obtain a Personal Identification Number
(“PIN”) for use with your Card in accessing your line of credit at automatic teller
machines (“ATM’s”), contact PIN Now, at 1-888-891-2435. PIN numbers are issued to
you for security purposes. These numbers are confidential and should not be
disclosed to third parties. You are responsible for safekeeping your PIN. You agree
not to disclose or otherwise make available your PIN to anyone not authorized to sign
on your Accounts. If you authorize anyone to use your PIN that authority shall
continue until you provide us with express revocation of that authority. If you fail to
maintain your PIN security and we sustain a loss, we may terminate all services on
your Accounts immediately. To keep your Account secure, do not write your PIN on
your Card or keep it in the same place as your Card.
14. Returns and Adjustments. Merchants and others who honor the Card may give
credit for returns or adjustments. We will post these to your account. If your credits
and payments exceed what you owe us, we will hold and apply this credit balance
against future purchases and cash advances, or if it is $1 or more, refund it on your
written request or automatically after 6 months.
15. Foreign Transactions. Purchases and cash advances made in foreign countries and
foreign currencies will be billed to you in U.S. dollars. The conversion rate to dollars
will be at (1) the wholesale market rate or (2) the government mandated rate,
whichever is applicable, in effect one day prior to the processing date, increased by
one percent.
16. Security Interest. To secure your account, you grant us a purchase money security
interest under the Uniform Commercial Code in any goods you purchase through the
account. If you default, we will have the right to recover any of these goods which
have not been paid for through our application of your payment in a manner

Continued on Next Page

Revised 5/16

described in paragraph 10. Your Account is secured by all other shares you have in
any individual or joint account with the Credit Union, except for shares in an
Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law if given as security. These other shares may
be withdrawn if you are in default under this agreement. You authorize the Credit
Union to apply the balance in your individual or joint share accounts to pay any
amounts due on your Account if you should default.

be replaced with a Reward of equal or greater value or you will be advised so that you
can make an alternate selection.

17. Effect of Agreement. This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advance, credit or other
slips you sign or receive may contain different terms. We may amend this
Agreement from time to time by sending you a 45 day advance written notice
required by law. Your use of the card thereafter will indicate your agreement to the
amendments. To the extent the law permits, and we indicate in our notice,
amendments will apply to your existing account balance as well as to future
transactions. You have the right to reject a change in terms prior to the effective
date thereof by calling us toll free at 1-866-273-3281 or by mailing us at: 1380
Market Ave North Canton Ohio 44714. In such case, your account will be
terminated or suspended and no further credit will be available to you. You will
remain liable to pay the balance then due under the existing terms. The right to
reject a change in terms does not apply if we have not received a required
minimum payment within 60 days after the due date for that payment.

D. Your statement will normally include the number of Points earned, subject to
adjustment as provided for in these Rules. Points will be deducted from your current
total of Points earned for corresponding retail purchase returns posted to your
account. Your account may be charged for the difference in the event you have
already redeemed unearned Points.

18. Changing or Terminating Authorized Users. Upon your request, we may issue
additional cards for authorized users that you designate. You must notify us in
writing of any termination of an authorized user’s right to access your account.
Your letter must include the name of the authorized user and your account number
and/or any subaccount number issued to the authorized user along with the
authorized user’s card and any convenience or other access checks issued to the
authorized user. If you cannot return the authorized user’s card or access checks
and if you request your account to be closed, we will close out your VISA Account
and issue you a new card.
19. Using VISA Convenience Checks. From time to time, we may issue You VISA
Convenience Checks for use as you would use a VISA Card to make a purchase or
payment or to receive cash. Your VISA Convenience Checks directly access your
VISA Account. All VISA Convenience Checks paid by us are treated as Cash
Advances hereunder and, except as otherwise indicated, are subject to all terms of
this Agreement pertaining to Cash Advances and to the following additional terms:
•
VISA Convenience Checks cannot be ordered by members of CSE Federal
Credit Union.

•
•

The Minimum VISA Convenience Check amount is $100.00.

C. Points in this Program may not be used with any other offer, promotion or
discount, cannot be earned from or transferred to, any other credit card at another
institution. CSE Federal Credit Union may offer additional redemption opportunities
at its discretion.

E. Your account must be open and clear (i.e., not canceled, terminated, delinquent or
otherwise not available to use for charges) at the time you request to redeem Points.
Otherwise, CSE Federal Credit union reserves the right to suspend your participation
in the Program and your Points will be forfeited.
F. Despite our best efforts to ensure accuracy, printing errors occasionally occur. We
reserve the right to correct such errors at any time even if it affects an existing order.
G. This Program may be modified, suspended or canceled and the redemption value
of already accumulated Points may be changed at any time without notice and
without restriction or penalty. CSE Federal Credit Union reserves the right to change
the point accrual and retention period from time to time. Changes to the Program
may include, but are not limited to, modifications which (i) increase the point value
for every Net Purchase dollar charged and (ii) expire points based on the point term,
age and expiration date of the selected option(s).
H. You will be notified of point accrual and/or point expiration Program changes.
Contact the Financial Institution for details on applicable accumulation options which
are then in effect. Points may be forfeited due to Rules violations. This Program is
void where prohibited or restricted by law. You are responsible for any federal, state
or local income, sales, use or other taxes or gratuities.
I. Certain restrictions may apply to travel, lodging and other certificates. Travel and
other certificates are not exchangeable, refundable, transferable or redeemable for
cash. All certificates will be mailed first class and will not be replaceable in the event
of loss, destruction or theft.
J. We are not responsible for the availability of the Website,
www.selectyourrewards.com/choicerewards

No VISA Convenience Check may be used to make a payment on your VISA
K. This Program is available to account holders (“You”) which CSE Federal Credit
Union has enrolled in this Program. Your use of your account following receipt of
Only the person whose name appears on a VISA Convenience Check may use these Rules will indicate your agreement to these Rules.
them.
* Reward Points expire after 60 months. See your statement for details. For full Terms
VISA Convenience Checks must be written in U.S. Dollars.
and Conditions, visit www.selectyourrewards.com/choicerewards.
Convenience Checks may not be certified.
Account or any other CSE loan obligation.

•
•
•
•

We may return a VISA Convenience Check unpaid if there is not enough
available credit on your Account to pay it, if your Account is in Default, or if a
Card or any VISA Convenience Checks have been reported lost or stolen.

20. Choice Rewards Terms and Conditions. Changes to the Program may happen at
any time without notice and without restriction or penalty. For the most current
list of merchandise available, point values and to redeem points for merchandise,
go to www.selectyourrewards.com/choicerewards.
A. Every dollar in purchases, net of returns (“Net Purchases”) you charge to your
account covered by this Choice Rewards Program (“Program”) and that appears on
your statement during the Program period, earns You one bonus point (“Point”) as
provided for in these Rules. Points for this Program begin to accumulate with
purchases you make beginning on the first day you are accepted into the Program.
Final Choice Reward orders must be received no later than 60 days after your
Program ends. Contact us for details.
B. Points can be used to order items described online at
www.selectyourrewards.com/choicerewards. You may select rewards from any
level, subject to availability, as long as you have the then necessary number of
Points posted to your account. Point requirements are subject to change and
Rewards may be substituted at any time. Should a Reward be discontinued, it will

Page 3 of 3

Revised 5/16

YOUR BILLING RIGHTS—KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
Notify us In Case of Errors or Questions About Your Bill
If you think there is an error on your statement, write to us at:

CSE Federal Credit Union
1380 Market Ave N
Canton, OH 44714

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of Problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
• You must contact us within 60 days after the error appeared on your statement.
• You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
While we investigate whether or not there has been an error, the following are true:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount. But,
if we determine that we made a mistake, you will not have to pay the amount in question or any interest or other fees
related to that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied CSE Federal Credit Union
1380 Market Ave N
with the purchase, contact us in writing [or electronically] at:
Canton, Ohio 44714
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay we may report you as
delinquent.
PLEDGE OF SHARES
By signing below, you are granting us a security interest in any of your share accounts with us to secure payment of your
Visa Account. You authorize us to apply any funds in your share accounts to the balance owing on your Visa Account if
you should default.

X
Applicant - Member Signature

Revised 5/16

Date

X
Co-Applicant - Member Signature

Date

X
CSE Staff Signature

Date

